     OFFICE OF JUSTICE PROGRAMS 

 OFFICE FOR VICTIMS OF CRIME GRANTS

         SUB-AWARDED BY THE

PUERTO RICO DEPARTMENT OF JUSTICE TO

      CARLOS ALBIZU UNIVERSITY 

        SAN JUAN, PUERTO RICO 


      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 



      Audit Report GR-40-10-008 

           September 2010

  OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF CRIME, 

  GRANTS SUB-AWARDED BY THE PUERTO RICO DEPARTMENT OF

             JUSTICE TO CARLOS ALBIZU UNIVERSITY 

                    SAN JUAN, PUERTO RICO



                           EXECUTIVE SUMMARY 


       The Office of the Inspector General Audit Division has completed an
audit of grants the Puerto Rico Department of Justice (PRDOJ) awarded to
Carlos Albizu University (CAU). The PRDOJ made seven sub-awards to CAU
from grants funds it received from the Office of Justice Programs’ (OJP)
Office for Victims of Crimes (OVC). Funding for these grants comes from the
Crime Victims Fund (the Fund) established by the 1984 Victims of Crime Act.
From 2001 through 2007, the OVC awarded $35,400,359 to the PRDOJ. In
turn, the PRDOJ made seven sub-awards totaling $3,969,642 to CAU to
provide psychological services to victims of crime. CAU is a private
non-profit university that offers undergraduate degrees in behavioral
sciences and advanced degrees in psychology and other related fields. CAU
has campuses in San Juan, Puerto Rico, and Miami, Florida. We conducted
our audit at the campus in San Juan, Puerto Rico.

       We initially conducted a limited scope review of CAU’s internal controls
for administering Department of Justice (DOJ) grant funds. We identified
issues pertaining to grant administration and financial management that
required us to perform additional audit work. As a result, we conducted a
full scope audit of seven sub-grants the PRDOJ awarded to CAU. Based on
our audit work, we identified $1,220,716 in questioned costs and made a
referral to the U.S. Attorney’s Office (USAO), District of Puerto Rico,
regarding certain aspects of CAU’s financial management. The USAO,
District of Puerto Rico, did not initiate any action, but determined that
administrative remedies should be pursued.

      We tested compliance with essential grant conditions pertaining to
CAU’s internal controls, budget management and control, expenditures,
matching program costs, property management, reporting, grant
accomplishments, and program income. We also tested the accounting
records to determine if costs claimed under the awards were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grants.

     We found weaknesses in CAU’s internal controls, grant expenditures,
matching costs, reporting, and accomplishment of grant goals and


                                       i
objectives. As a result, we question $1,220,716 as unallowable or
unsupported and make four recommendations for improvement.

We found that CAU:

     did not follow its established procedures for approving the payment of
      expenses;

     spent $216,000 for rent in a building where it had no rental costs;

  	 implemented a flawed method of billing for hours of services provided
     to victims of crime and as a result, the Program paid for services that
     were not provided;

     charged $207,737 in unallowable personnel costs to program funds;        


     spent $2,366 in grant funds for employee gifts at a Christmas party; 


     did not provide $656,836 in matching program costs; 


     could not account for how $137,777 in program funds were spent 

      because its contractor, the Community Mental Health Clinic,
      commingled those funds with its general operating fund;

     did not accomplish program goals regarding the number of victims it
      planned to serve; and

     over reported the number of crime victims it served each year, which
      the PRDOJ then reported to the OVC.

       Our audit objectives, scope, and methodology appear in Appendix 1.
We discussed the results of our audit with CAU officials and have included
their comments in the report as applicable.




                                      ii
                                  TABLE OF CONTENTS




INTRODUCTION ......................................................................... 1 

      Program Background.............................................................1 

        Program Implementation and Collaboration ...........................2

        Identification of Victims ......................................................3

      Audit Approach ....................................................................3 

FINDINGS AND RECOMMENDATIONS ........................................ 5 

      Internal Control Environment .................................................5 

        Segregation of Duties......................................................... 5 

        Commingling of Funds ........................................................ 6 

      Grant Drawdowns ................................................................. 7 

      Financial Management of Program Funds ................................. 7 

        Joint Audit and Investigative Activity ....................................8

      Program Expenditures ......................................................... 11 

        Personnel Expenses ......................................................... 12 

        Other Direct Costs ........................................................... 13 

      Matching Costs................................................................... 14 

      Accountable Property .......................................................... 15 

      Program Goals and Accomplishments .................................... 15 

      Financial Status Reports and Program Reports ........................ 17 

        Financial Status Reports ................................................... 17 

        Program Reports ............................................................. 18 

      Program Income................................................................. 19 

      Conclusion......................................................................... 19 

      Recommendations .............................................................. 20 

APPENDIX 1 -	 OBJECTIVES, SCOPE, AND METHODOLOGY ..... 22 

APPENDIX 2 - SCHEDULE OF UNALLOWABLE RENT

             PAYMENTS CAU MADE TO THE CLINIC ............ 23 

APPENDIX 3 -	 SCHEDULE OF DOLLAR-RELATED FINDINGS ... 24 

APPENDIX 4 -          OFFICE OF JUSTICE PROGRAMS        

                      RESPONSE TO THE DRAFT REPORT ................. 25 

APPENDIX 5 -	 PUERTO RICO DEPARTMENT OF JUSTICE AND 

              CARLOS ALBIZU UNIVERSITY RESPONSE 

              TO THE DRAFT REPORT ................................... 28 

APPENDIX 6 - OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS          

             NECESSARY TO CLOSE THE REPORT ................ 33 

                                 INTRODUCTION

       The Office of the Inspector General (OIG) Audit Division, has
completed an audit of grant funds sub-awarded by the Puerto Rico
Department of Justice (PRDOJ) to Carlos Albizu University (CAU). CAU is a
private, non-profit, university that offers bachelor’s degrees in behavioral
sciences and advanced degrees in psychology and other related fields. CAU
has campuses located in San Juan, Puerto Rico, and Miami, Florida. We
conducted our audit work at the San Juan, Puerto Rico, campus. Our work
at CAU began as a limited scope review of internal controls over
administration of grant funds. Because of the internal control weaknesses
identified, we converted the review into a full-scope audit and requested the
assistance of OIG investigators.

        We tested seven grants sub-awarded by the PRDOJ to the CAU to
provide psychological services to victims of crime. Each award after the
initial award was for the continuation of services offered by CAU.

Program Background

       The U.S. Department of Justice Office of Victims of Crime (OVC)
administers the Crime Victims Fund (the Fund) established by the 1984
Victims of Crimes Act (VOCA). The Fund supports the Victim Compensation
and Victim Assistance Program. Since its inception, the Fund has been
supported not by tax dollars, but by fines, penalties, and bonds forfeited by
convicted federal offenders. The OVC distributes VOCA funds to states,
territories, and the District of Columbia to compensate and assist victims
and survivors of domestic violence, sexual assault, child abuse, drunk
driving, homicide, and other crimes.

     Each year, the states, territories, and the District of Columbia receive
VOCA funds under the Victim Assistance Program (the Program) to support
community-based organizations that serve crime victims. All VOCA fund
recipients receive an annual base amount of $500,000 plus an additional
amount based on the population they serve. VOCA fund recipients award
about 5,600 grants to domestic violence shelters, rape crisis centers, child
abuse programs, and victim service units in law enforcement agencies,
prosecutors’ offices, hospitals, and social service agencies. In turn, the
recipients provide crisis intervention, counseling, emergency shelter,
criminal justice advocacy, and transportation services to victims of crime.
The states and territories have sole discretion for determining the amount of
funds organizations receive, providing that the sub-recipients meet VOCA
requirements and Program guidelines. The Commonwealth of Puerto Rico


                                      1

has received VOCA funds since 1986. Those funds are administered by the
PRDOJ which then sub-awards funds to crime victim service providers.

      As shown in Exhibit 1, from fiscal year 2001 through fiscal year 2007,
the Office of Justice Programs (OJP) awarded $35,400,359 to the PRDOJ,
which sub-awarded $3,969,642 to CAU.

                 Exhibit 1: Grant Funds the PRDOJ 

            Sub-Awarded to CAU for Mental Health Services 

       OJP Awarded to the PRDOJ                 PRDOJ Sub-Awarded to CAU
                           Award            Project       Project      Sub-Award
     Award Number
                           Amount          Start Date    End Date       Amount
    2001-VA-GX-0072        $5,187,000     04/16/2002    04/15/2003       $687,941
    2002-VA-GX-0072         5,246,000     04/16/2003    09/30/2003           297,462
    2003-VA-GX-0057         4,798,000     10/01/2003    09/30/2004           601,861
    2004-VA-GX-0012         4,837,000     10/01/2004    09/30/2005           616,861
    2005-VA-GX-0043         5,044,000     10/01/2005    09/30/2006           616,061
    2006-VA-GX-0043         5,321,359     10/01/2006    09/30/2007           601,061

    2007-VA-GX-0054         4,967,000     10/01/2007    09/30/2008           548,395

         Totals         $35,400,359                                   $3,969,642
  Source: Office of Justice Programs and Puerto Rico Department of Justice

     Program Implementation and Collaboration

       CAU entered into a contract with the Community Mental Health Clinic
(CMHC), a non-profit organization within CAU, to provide mental health
services to victims of crime. The president of CAU was also the president of
the CMHC. The PRDOJ was aware of the relationship between the two
entities and that CAU used the CMHC to provide mental health services.
CAU and the CMHC agreed to abide by the PRDOJ’s special conditions,
including the requirement that both entities comply with VOCA Program
Guidelines and the OJP Financial Guide.

      As shown in Exhibit 2, CAU paid about 62 percent of the funds it
received to the CMHC to provide mental health services.




                                          2

                    Exhibit 2: Funds Awarded to CAU and 

                               Paid to the CMHC

                                                          Amount
                                          Amount
       Sub-Award                                          CAU Paid        Percent
                                        Received by
        Number           Fiscal Year                        the           of Funds
                                           CAU
                                                           CMHC1
    2001-VA-GX-0072          2003          $674,639        $375,000          56
                             2003
    2002-VA-GX-0072                        $289,047        $171,875          59
                         (supplement)
    2003-VA-GX-0057          2004          $599,336        $345,965          58
    2004-VA-GX-0012          2005          $601,861        $346,000          57
    2005-VA-GX-0043          2006          $601,061        $410,000          68
    2006-VA-GX-0043          2007          $600,629        $410,000          68
    2007-VA-GX-0054          2008          $561,462        $384,767          69

           Total                         $3,928,035      $2,443,607          62
    Source: Carlos Albizu University

      Identification of Victims

      Crime victims are first referred to the PRDOJ where technicians
determine whether the victims need psychological services and whether
there is a clinic near the victim’s residence. Technicians then contact CAU
and make an appointment for the victim to receive services at a clinic on
CAU’s San Juan campus or one of five other CMHC satellite clinics across
Puerto Rico. Sixteen CAU doctoral student interns provide the services.

       The contract between CAU and the CMHC provided that the CMHC
would bill CAU $50 for each hour of service provided to crime victims and
pay each intern $1,100 per month for 12 months. However, as discussed
later in this report, the clinic’s method for billing CAU for services was flawed
and resulted in CAU paying for services that CMHC clinics did not provide.

Audit Approach

      Our audit concentrated on Program funds administered by CAU, the
largest non-profit organization that receives funds from the PRDOJ. To
accomplish the objectives of our audit, we performed site work at the
PRDOJ, CAU, the CMHC, and four CMHC satellite clinics. At each site, we
interviewed PRDOJ and CAU officials and reviewed accounting records and
other documentation. We tested whether CAU complied with the most
      1
         The CAU also paid the CMHC $216,000 for “rent” in a building that was rent free to
CAU and the CMHC.

                                            3

important conditions of the grants. We audited against criteria contained in
the OJP Financial Guide, award documents, Office of Management and
Budget Circulars, and VOCA Program Guidelines. We also assessed whether
CAU provided timely and accurate Program data for the PRDOJ to use in
preparing reports for the OVC. We tested CAU’s:

  	 internal controls to identify policies and procedures adopted by CAU
     to meet its mission, goals, and objectives;

  	 grant drawdowns to determine whether they were adequately
     supported and if CAU was managing grant receipts in accordance with
     federal requirements;

  	 financial management of program funds to determine the overall
     acceptability of budgeted costs by identifying any budget deviations
     between the amounts budgeted and the actual costs for each cost
     category;

  	 program expenditures to determine the accuracy and allowability of
     costs charged to the grants;

  	 accountable property to determine whether CAU could account for
     property bought with program funds and whether the property was
     being used for program purposes;

  	 matching costs to determine if the CAU was complying with grant
     matching requirements;

  	 program goals and accomplishments to determine if CAU met the
     grant goals; and

  	 financial status and program reports to determine if the required
     Financial Status Reports and Program Reports were submitted timely
     and accurately reflected grant activities.

      We assessed Program performance in accordance with goals set forth
in the CAU’s grant application and our results are discussed later in this
report. The CAU had no income generated from the Program funds.




                                     4

                   FINDINGS AND RECOMMENDATIONS


      COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      We found that CAU: (1) did not always follow internal controls
      for approving payments; (2) spent grant funds for rent where it
      had no rental costs; (3) implemented a flawed method of
      billing for hours of services provided to crime victims and, as a
      result, the Program paid for services that were not provided;
      (4) charged unallowable salaries and other costs to grant
      funds; (5) did not provide its required matching share of
      Program costs; (6) did not achieve Program goals for the
      number of victims it planned to serve; and (7) over reported to
      the PRDOJ, the number of victims served. Further, because a
      CAU contractor commingled federal funds with its general
      operating funds revenue account, the CAU could not account
      for how some federal funds were spent. As a result of these
      weaknesses, we question $1,220,716 as unallowable or
      unsupported costs and make four recommendations for
      improvement.

Internal Control Environment

      To assess CAU’s risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grants, we reviewed Single Audit
Reports, reviewed policies and procedures, and interviewed CAU staff. We
found that CAU complied with the Single Audit requirement as contained in
Office of Management and Budget Circular A-133. Auditors completed the
single audits and found no internal control weaknesses that affected federal
programs and no matters involving internal controls or compliance with laws
and regulations that they considered to be material weaknesses. The report
on compliance with requirements applicable to major federal award
programs expressed an unqualified opinion. CAU also maintained a system
of accounting controls that were adequate to identify and properly classify
grant costs.

      Segregation of Duties

       We identified two instances where CAU deviated from established
internal controls. Specifically, a CAU official approved her own request for
reimbursement of travel costs. This official told us that she had signed blank
payment requests and gave the signed blank requests to an administrative
clerk to use when she was not present to sign payment requests for other

                                      5

Program costs. The CAU official told us that the clerk mistakenly used the
pre-approved forms to process the official’s own travel reimbursements.
Other officials in the Finance Department told us they were not aware of the
pre-approved forms. Such practice increases the risk that grant funds may
be misused. We discussed this finding with CAU management officials who
subsequently told us that this practice had been corrected.

       Commingling of Funds

      The OJP Financial Guide requires grantees to establish and maintain an
adequate system of accounting and internal controls that adequately identify
and classify grant costs. Funding and expenditures for each award must be
accounted for separately. Grantees’ and sub-grantees’ accounting controls
must ensure that funds are used efficiently and that expenditures are in
compliance with the terms and conditions of the grants. The Guide also
requires that federal funds not be commingled with funds from other sources
and that funds received for one project not be used to support another
project.

      We found that the CMHC commingled Program funds it received from
CAU with CMHC general operating funds revenue account, which prevented
us from determining how some Program funds were spent. We obtained
CAU’s and the CMHC’s accounting records for the last 3 years covered by our
audit and compared those records to the Program funds provided by the
PRDOJ.2 As shown in Exhibit 3, CAU and the CMHC could not account for
how $137,777 in Program funds were spent.

                                Exhibit 3:
           Program Funds CAU and the CMHC Could Not Account For
                                                          Expenses
                                                         According to      Amount
                                           Program
            Sub-Award      Fiscal Year                  CAU and CMHC     Unaccounted
                                           Funding
                                                         Accounting          For
                                                           Records
       2005-VA-GX-0043        2006         $597,796        $548,272         $49,524

       2006-VA-GX-0043        2007         $598,534        $560,201         $38,333

       2007-VA-GX-0054        2008         $558,542        $508,622         $49,920

                    Total Program Funds Unaccounted For                    $137,777
     Source: Carlos Albizu University




       2
         We did not include data from earlier years because the records for those years were
incomplete.

                                             6
      We discussed this with CAU officials and we were told that the funds
were spent for costs not related to the Program. CAU officials believed that
CAU and the CMHC could use the funds however they saw fit. We also
discussed this with PRDOJ officials and we were told that CAU and the CMHC
were free to use Program funds that exceeded Program costs to expand
services to victims of crime. However, CAU did not use the excess funds to
expand Program services. When the PRDOJ reduced funding to CAU for
FY 2008, the CAU closed one satellite clinic, which reduced available
services. We question the $137,777 as unallowable, because those funds
were spent for costs not related to the Program.

Grant Drawdowns

     The PRDOJ drew down grant funds from OJP based on the funding
requests the PRDOJ received from CAU. The funding requests included
amounts the CMHC had billed CAU plus projected future costs.

      We interviewed PRDOJ officials and reviewed supporting
documentation to determine whether CAU complied with the PRDOJ’s
sub-award conditions and whether funding requests were properly
supported. PRDOJ officials believed CAU had complied with the conditions of
the sub-award pertaining to funding requests. We compared CAU’s funding
requests to the expenditures recorded in CAU’s accounting records for the
same period. We found that other than the unaccounted for funds noted in
the prior section of this report, Program funds generally agreed with
Program expenditures according to CAU’s accounting records.

Financial Management of Program Funds

       As discussed in the Background section, CAU contracted with the
CMHC, a non-profit entity incorporated under the corporate umbrella of CAU,
to provide psychological services to victims of crime. The CMHC’s main clinic
is located on the first floor of the CAU building at the San Juan campus.
CAU’s Finance Department handled CAU’s and the CMHC’s accounting
activities and financial reports pertaining to Program funds. The accounting
system had separate accounting fund numbers for CAU’s and the CMHC’s
accounting transactions. CAU was to compensate the CMHC $50 for each
hour of direct service provided to victims. The CMHC provided services at
the CAU campus in San Juan and at five satellite clinics across Puerto Rico.
These satellite clinics operated in rented space paid for with Program funds.




                                     7

      Joint Audit and Investigative Activity

       During our audit, we identified two financial management issues that
we referred to the OIG’s Investigations Division. One of these issues
pertained to 40 monthly payments of $5,400 the CAU made to the CMHC
pursuant to a lease agreement for space in a building controlled by CAU
where it had no rental costs. The other issue pertained to the methodology
the CMHC used to bill CAU for hours of services provided to clients during
the life of the Program. We discuss each of these issues in detail below.

      From April 2002 through September 2005, CAU paid the CMHC a total
of $216,000 for rent even though CAU had free use of the building and there
was no cost to the CMHC to occupy the space.3 CAU stopped making rent
payments at the end of FY 2005. CAU claimed the rent paid to the CMHC as
a Program expense and was reimbursed for the rent expense by the PRDOJ.
CAU made the rent payments under a lease agreement between CAU and
the CMHC. The agreement was executed by CAU’s then-President, who
signed the agreement representing the CMHC, and a Vice President of CAU,
who signed the agreement representing the CAU. Because CAU had control
of the building in which the CMHC operated and neither the CAU nor the
CMHC incurred rental costs, the rent payments are unallowable. Exhibit 4
shows the rent payments that were made. The dates, check numbers, and
amounts of the individual payments are presented in Appendix 2.

                        Exhibit 4: Payments CAU Made
                             to the CMHC for Rent

                         Grant Number                  Amount

                       2001-VA-GX-0072                  $59,400
                       2002-VA-GX-0072                  $27,000
                       2003-VA-GX-0057                  $59,400
                       2004-VA-GX-0012                  $70,200
                             Total                     $216,000
                    Source: Carlos Albizu University

      We discussed these payments with the current CAU President and
other CAU officials. The President told us she joined CAU in 2007 and had
no knowledge of the rent payments to the CMHC. The President asked the
Vice President, who authored the grant proposal and signed the lease for
CAU, to explain the rent payments and answer our inquiries. The
      3
          The building is owned by the Commonwealth of Puerto Rico, which ceded it to CAU
in 1986 for a period of 50 years. Neither CAU nor the CMHC incurs any rent expense for the
use of the property.

                                            8

Vice President told us he did not remember the circumstances regarding the
lease, but would provide us with a response after he did some research.
However, we never received a response from the Vice President.

      We also discussed the rent payments with PRDOJ officials who told us
they were not aware CAU had paid the CMHC to rent space in a building that
was rent-free.

      The second issue we referred for investigation pertained to the
methodology CAU and the CMHC used to charge the grant for client services.
Most of the grant funds expended by CAU were for payments to the CMHC
for professional services provided to clients. CAU paid the CMHC under the
terms of an agreement that, like the lease agreement, was signed for CAU
by a CAU Vice President and for the CMHC by the CAU’s then-President. The
agreement provided that CAU would pay the CMHC $50 for each hour of
service provided to Program participants or for being available to provide
services to Program participants. Exhibit 5 shows the payments CAU made
to the CMHC under each grant sub-award and the hours of services that the
CMHC should have provided in association with the payments.

              Exhibit 5: Payments to the CMHC for Services
                                                        Hours of
                                           Payment
           Sub-Award       Billing Period               Services
                                            Amount
                                                       Required
        2001-VA-GX-0072        04/16/02-04/15/03    $375,000    7,500
        2002-VA-GX-0072        04/16/03-09/30/03    $171,875    3,438
        2003-VA-GX-0057        10/01/03-09/30/04    $345,965    6,919
        2004-VA-GX-0012        10/01/04-09/30/05    $346,000    6,920
        2005-VA-GX-0043        10/01/05-09/30/06    $410,000    8,200
        2006-VA-GX-0043        10/01/06-09/30/07    $410,000    8,200
        2007-VA-GX-0054        10/01/07-09/30/08    $384,767    7,695
                          Total                    $2,443,607   48,872
      Source: Carlos Albizu University

      To obtain an understanding of the process used to bill for services, we
interviewed the Program Director and staff. We also reviewed the support
for one month’s bill for services provided to clients. We determined that
from the inception of the Program through May 2008 each CMHC clinic
prepared monthly reports showing the types of services provided to crime
victims, and the CMHC used those reports to bill CAU for the services. The
reports did not contain the hours of service provided.


                                         9

       CMHC clients generally received more than one type of service during
a visit to a clinic, and a client could receive multiple services of different
types during a 1-hour appointment. We determined that monthly reports
prepared by the clinics identified the number of clients served and the types
of services they received, but the reports did not identify the hours of
service provided. Nonetheless, the CMHC used the monthly reports to bill
CAU for service hours on the basis of 1 hour for each type of service
provided to each client. CAU paid the CMHC and claimed reimbursement
from the PRDOJ in accordance with the CMHC bills.

       To further assess the CMHC’s billing methodology, we reviewed client
files for October 2007 from four of CMHC’s six clinics. We reconstructed the
documented number of hours for which these clinics provided services.
Exhibit 6 compares the amounts actually billed for each clinic to the amounts
that would have been billed based on the documented hours of services
provided.

                                     Exhibit 6: 

                  Services Billed Compared to Services Provided 

                                 For October 2007

                 Services Billed        Services Provided
  Clinic                                                      Hours       Amount
 Location      Hours       Amount       Hours     Amount    Overbilled   Overbilled

 San Juan       470         $ 23,500     63       $ 3,150        407      $20,350
 Caguas         909         $ 45,450     122      $ 6,100        787      $39,350
 Humacao        323         $ 16,150    79.5      $ 3,975      243.5      $12,175
 Mayaguez       108         $   5,400   75.5      $ 3,775       32.5       $1,625
 Total         1,810        $ 90,500    340       $17,000     1,470       $73,500
Source: Carlos Albizu University

      We found that the CMHC billed for 1,470 more hours of service than
were documented in client files, for a total overbilling of $73,500. Because
the reconstruction of documented hours of service required significant time
to complete, we did not reconstruct the hours for other months.

       We discussed our October 2007 billing tests with CAU and CMHC
officials. Officials from both entities agreed that the methodology the CMHC
used to prepare the billings was flawed. CAU officials told us this
methodology was used since the inception of the Program in April 2002 and
that CAU had continued using it. The officials said that neither Single Audits
nor PRDOJ site visits identified concerns with the billing methodology.



                                           10 

      We also discussed our October 2007 billing tests with PRDOJ officials.
Those officials told us their staff had not identified the billing errors and were
unaware of the CMHC’s billing methodology and the potential amounts
overbilled. PRDOJ officials also said that their monitoring activity consisted
of a 1-day site visit by its Program manager and did not include procedures
to test the contractor’s billings. They said that the PRDOJ would include new
procedures in monitoring activities to test the billing.

      Beginning in October 2008, the PRDOJ changed the methodology it
uses to fund the CAU Program. The revised method reimburses CAU for its
actual costs of providing services rather than for hours of services billed.

     OIG auditors and investigators obtained and analyzed financial data
and documentation pertaining to the lease agreement and hours of services.
We presented the audit and investigative results to the U.S. Attorney’s Office
(USAO), District of Puerto Rico. The USAO did not initiate any action, but
determined that administrative remedies should be pursued. Consequently,
we are referring our findings to the Office of Justice Programs to pursue
administrative remedies through the audit resolution process.

     We question $216,000 in payments for rent. We believe that the
appropriate remedy for these costs is a recovery of the funds by the PRDOJ.
Regarding the overbilling for services, we did not use a statistical sampling
methodology and did not test hours of services billed for other months.
Rather than question costs for October 2007, we separately assess Program
expenditures in the next section of this report and question certain of those
expenditures.

Program Expenditures

      The OJP Financial Guide and VOCA Program Guidelines establish
factors that affect the allowability, reasonableness, and allocability of costs
charged to Program funds.

       According to VOCA Guidelines, the purpose of the Program is to
provide services to victims of crime. Victim services include those that:
(1) respond to victims’ emotional and physical needs, (2) stabilize their lives
after they have been victimized, (3) help victims understand and participate
in the criminal justice system and (4) provide victims with a measure of
safety and security. Program funds may be used for personnel expenses
and other direct costs of providing these services.




                                       11 

      Personnel Expenses

      The VOCA Guidelines provide that allowable personnel costs are those
that relate directly to providing services to victims of crime. Salaries and
fringe benefits for administrative staff are generally unallowable.

      CAU and the CMHC submitted a joint application for funding that
included administrative and clerical staff personnel costs. The PRDOJ
advised CAU that these costs were unallowable and to submit a revised
grant budget. The CAU submitted a revised budget and assured the PRDOJ
that CAU and the CMHC would adhere to grant conditions.

      We judgmentally selected two non-consecutive pay periods from CAU
and the CMHC for each of the 7 years covered by our audit, for a total of 14
bi-weekly pay periods, and traced the personnel costs for these periods to
supporting documentation. We found that CAU and the CMHC charged
$207,737 in personnel costs for administrative staff to Program funds. We
question the $207,737 as unallowable because these administrative
personnel did not provide direct services to victims of crime as required by
VOCA Guidelines. Exhibit 7 shows the unallowable personnel costs for each
year.

                  Exhibit 7: Unallowable Personnel Costs 

                        Charged to Program Funds 

                     Sub-Grant                           Personnel
                                        Fiscal Year
                      Number                               Costs
                                                4
                  2001-VA-GX-0072          2003            $15,039
                                                5
                  2002-VA-GX-0072          2003              7,265
                  2003-VA-GX-0057          2004             39,040
                  2004-VA-GX-0012          2005             30,422
                  2005-VA-GX-0043          2006             37,084
                  2006-VA-GX-0043          2007             47,751
                  2007-VA-GX-0054          2008             31,136
                                 Total                    $207,737
                Source: Carlos Albizu University Finance Department




      4 Sub-grant 2001-VA-GX-0072 was for the period April 2002 through March 2003.

      5 Sub-grant 2002-VA-GX-0072 was for the period April 2003 through
September 2003.


                                         12 

      We discussed these unallowable personnel costs with CAU officials who
told us they were under the impression that these costs were allowable.
However, CAU officials also told us that they will work with the OVC and the
PRDOJ to remedy these questioned costs.

       Other Direct Costs

      From a universe of 3,777 other direct cost transactions with a total
value of $2,777,359, we tested a sample of 172 transactions with a value of
$695,541 (25 percent).6 The transactions we tested were for equipment,
depreciation, gifts, maintenance, supplies, training, travel, and utilities. We
reviewed each sampled transaction to determine whether it was supported,
allowable, and in compliance with the terms and conditions of the grants.
We identified 42 transactions that were unallowable. Of these transactions,
40 correspond to the unallowable rent payments discussed in page 8. The
other two transactions totaling $2,366 were for gifts to CAU employees at a
2006 Christmas party. These costs are unallowable because the costs were
not related to providing direct services to crime victims. CAU officials told us
that they will work on remedying the questioned costs resulting from this
finding.

      In summary, total Program expenditures according to CAU’s and the
CMHC’s accounting records were $3,920,062. Earlier in this report, we
discussed unallowable payments for rent, personnel costs, gifts, and
Program funds that CAU and the CMHC could not account for. Total
expenditures, questioned costs, and allowable Program costs are shown in
Exhibit 8.

                                  Exhibit 8: 

                     Program Costs, Questioned Costs, and 

                           Allowable Program Costs 

            Total Expenditures                                        $3,920,062
            Less Unallowable Costs:
               Rent payments                          216,000
               Personnel costs                        207,737
               Gifts at a Christmas party               2,366
                                      7
               Unaccounted for funds                  137,777           -563,880
            Allowable Program Costs                                  $3,356,182
           Source: OIG analysis of CAU and CMHC records



       6 Our sample included 86 transactions from CAU’s accounting records and
86 transactions from the CMHC’s accounting records.

       7
         CAU officials told us the unaccounted for funds were spent on costs not related to
the program. We question those costs as unallowable.

                                             13
Matching Costs

      The OJP Financial Guide provides that matching funds must support a
federally-funded project and must be in addition to funds that would
otherwise be made available for the stated Program purpose. The purpose
of matching contributions is to increase the amount of resources available to
the project. Matching funds may be cash or in-kind contributions such as
services, equipment, or space.

      According to the grant budgets approved by the PRDOJ, CAU was
required to match 20 percent of the cost of the Program by providing victim
services valued at $50 for each hour of services provided. CAU estimated
that total costs of operating the Program would be $4,962,505. Based on
the 20 percent matching requirement, CAU had to provide $992,863 as its
matching share, which is equal to 19,857 hours of victim services. The
CMHC was to begin providing these matching services after it had reached
the maximum annual amount that it could bill CAU for services.

                 Exhibit 9: Matching Services Required
                                      Hours of
                                                      Value of
                                      Matching
                  Sub-Award                           Matching
                                      Services
                                                      Services
                                      Required
               2001-VA-GX-0072          3,440           $171,986

               2002-VA-GX-0072          1,487             74,366

               2003-VA-GX-0057          3,009            150,466

               2004-VA-GX-0012          3,084            154,215

               2005-VA-GX-0043          3,081            154,065

               2006-VA-GX-0043          3,005            150,265

               2007-VA-GX-0054          2,750            137,500

                     Total             19,856          $992,863
              Source: Carlos Albizu University Finance Department

      We determined that CAU did not meet the matching requirement and
paid the CMHC for more services than were provided. As discussed on page
10 of this report, we tested the billings for the month of October 2007 and
found the CMHC billed CAU for 1,810 hours, but provided only 340 hours of
psychological services. CAU could not provide documentation showing that
it met any of its matching share of Program costs.

                                        14 

      Although the matching requirement was based on budgeted costs
approved by the PRDOJ, actual Program costs were less than budgeted costs
and included unallowable costs. As shown in Exhibit 8, total allowable
Program costs were $3,356,182. Based on these allowable costs, CAU
should have provided 13,424 hours of services valued at $671,236
($3,356,182 times 20 percent) as its matching share.

       After we discussed our findings with CAU officials, we received
documentation showing that CAU student volunteers had provided 288 hours
of victim services valued at $14,400. We also received a market study
showing that the CAU-controlled space in which the Program operated had a
fair market value of $125,255.

      We accepted the $14,400 in services provided by student volunteers
as matching costs. However, regarding the CAU-controlled space, CAU
already charged $216,000 in unallowable rental costs to Program funds.
Thus, $656,836 in matching costs remains unsupported ($671,236 minus
$14,400). We recommend OJP remedy the $656,836 (13,137 hours of
services) in unsupported matching costs.

     After the $216,000 in unallowable rent paid with Program funds has
been recovered, CAU should seek OVC approval to use the $125,255 fair
market value of the space contributed as matching costs.

Accountable Property

       The OJP Financial Guide states that equipment purchased with grant
funds must be used to support the project whether or not the project
continues to be supported by federal funds. We judgmentally selected
10 items of equipment purchased with Program funds. We physically
verified each item and that the item was being used for Program purposes.

Program Goals and Accomplishments

      According to VOCA Program Guidelines, the purpose of the Program is
to respond to victims’ emotional and physical needs, stabilize their lives after
they have been victimized, help them understand and participate in the
criminal justice system, and regain a sense of safety and security. In the
grant applications submitted to the PRDOJ, CAU planned to provide these
services to 14,643 victims of crime. However, CAU did not achieve Program
goals or expand the availability of victim services in Puerto Rico. Further,
CAU over reported the number of victims served to the PRDOJ, which the
PRDOJ then reported to OVC.

                                      15 

       Each grant application CAU submitted to the PRDOJ included the
number of victims CAU planned to serve. Program goals were based on
discussions with the PRDOJ and estimates from Puerto Rico’s 13 judicial
districts on the number of potential victims. Actual numbers of victims
served are from quarterly Program reports that CAU submitted to the
PRDOJ. As shown in Exhibit 10, CAU did not meet its goals for the seven
sub-awards we reviewed.


                     Exhibit 10: Goal Compared to Actual 

                         Numbers of Victims Served 

                                                 Victims Served
       Sub-Award            Fiscal Year                            Goal Status
                                                 Goal     Actual
     2001-VA-GX-0072             2002            2,188    1,266      Not Met

     2002-VA-GX-0072             2003               985     817      Not Met

     2003-VA-GX-0057             2004            2,188    1,564      Not Met

     2004-VA-GX-0012             2005            2,453    1,604      Not Met

     2005-VA-GX-0043             2006            2,453    1,513      Not Met

     2006-VA-GX-0043             2007            2,188    1,467      Not Met

     2007-VA-GX-0054             2008            2,188      951      Not met

           Total                               14,643     9,182
   Source: Carlos Albizu University Grant Applications


     For the most recent sub-award, CAU officials explained that it did not
meet its goal because of a $52,666 reduction in funding from the prior year,
which resulted in CAU closing its clinic in Ponce, Puerto Rico.

      Although CAU provided victim services, the PRDOJ referred some
victims to other service providers because those victims did not live near a
CAU sponsored clinic. CAU officials told us they needed more federal funds
to open clinics in areas of Puerto Rico that are not served by the Program.
In our judgment, had CAU and the CMHC better used Program funds, CAU
could have opened new clinics and also kept the Ponce clinic open.

      We obtained detailed accounting records showing CAU’s and the
CMHC’s operating costs for Fiscal Years 2004 through 2008. As shown in
Exhibit 11, during those 5 years CAU received more federal funds than it
needed to operate the clinics.

                                             16 

   Exhibit 11: Resources Available to the CAU to Open New Clinics
                                                                            Resources
                                                              Match
              Federal        Actual           Excess                       Available to
 Fiscal                                                     20 percent
               Funds        Operating      Federal Funds                    Open and
 Year                                                      of Operating
             Received         Costs          Received                        Operate
                                                               Costs
                                                                           New Clinics

FY 2004      $599,335        $503,208         $96,127        $100,642          $196,769

FY 2005       601,861         508,204          93,657         101,641           195,298

FY 2006       597,796         511,187          86,609         102,237           188,846

FY 2007       598,534         510,083          88,451         102,017           190,468

FY 2008       546,462         477,487          68,975          95,497           164,472
                                   Total                                      $935,853
Source: Carlos Albizu University

     We determined that the cost to operate a clinic and provide
psychological services to victims of crime was about $50,000 per year.

Financial Status Reports and Program Reports

       Financial Status Reports

       For the grants we audited, OJP monitored the financial aspects of the
grants through quarterly Financial Status Reports (FSR). According to the
OJP Financial Guide, grantees were required to submit FSRs within 45 days
after the end of each quarter.8 To meet the reporting requirement, the
PRDOJ required CAU to submit quarterly financial reports within 10 days
after the end of each quarter to ensure the PRDOJ had the financial data
needed to prepare and submit its FSR to OJP within 45 days after the end of
the quarter.

       To determine whether the FSRs were accurate, submitted timely, and
submitted in compliance with PRDOJ requirements, we reviewed the four
most recent FSRs that CAU had submitted to the PRDOJ at the time of our
audit.

      We found that all but one FSR were submitted timely. The report for
the quarter ended June 30, 2007, was due on July 10, 2007, but was
received by the PRDOJ on August 7, 2007, which is 28 days after the due

       8
          Beginning October 1, 2009, the Federal Financial Report (FFR) replaced the FSR.
FFRs are due 30 days after the end of each calendar quarter.

                                            17 

date. According to the CAU, the report was late because there were staff
changes in the finance department and the new employees were not aware
of the reporting requirements.

      We also tested the accuracy of the FSRs for each quarter of FY 2007 by
comparing the reported amounts to the CAU’s accounting records. We
determined the reported amounts were supported by the accounting records.
However, as discussed earlier, some grant fund expenditures were for
unallowable and unsupported costs.

      We also noted that the PRDOJ did not require CAU to report on how its
contractor, the CMHC, spent Program funds. Not requiring recipients to report
on how they spend Program funds increases the risk that those funds could be
misused.

     Program Reports

      State governments that receive VOCA funds are required to submit an
annual State Performance Report to OJP’s Office of Victims of Crime (OVC).
State Performance Reports provide details on the types of programs
implemented, types of services provided, and numbers of victims served.
CAU was required to provide these details annually to the PRDOJ. The
PRDOJ used this information to prepare and submit its annual State
Performance Report to the OVC.

     We compared the State Performance Reports the PRDOJ submitted to
the OVC for fiscal years 2003 through 2008 to the supporting documentation
maintained by CAU. The results of our comparison are shown in Exhibit 12.

         Exhibit 12: Accuracy of State Performance Reports
                  the PRDOJ Submitted to the OVC
                                 Victims Served
                         Reported to                      Number of
                                           Supported by
              Fiscal      PRDOJ and                        Victims
                                           CAU Records
              Year            OVC                         Overstated
              2003             6,325            1,591        4,734
              2004             5,993            1,564        4,429
              2005             8,617            1,604        7,013
              2006             7,434            1,513        5,921
              2007             7,434            1,467        5,967
              2008               951              951            0
              Total          36,754            8,690       28,064
           Source: Carlos Albizu University




                                       18
      We found that 5 of 6 State Performance Reports the PRDOJ submitted
to the OVC were overstated by a total of 28,064 victims. These reports
showed that CAU served 36,754 victims while CAU’s supporting
documentation showed it served 8,690 victims. According to the
instructions for completing the State Performance Reports, each victim
should be counted only once. However, some victims were counted multiple
times. The errors occurred because staff who prepared the reports
misunderstood the instructions for reporting the number of victims served.
Because the PRDOJ did not verify the accuracy of the reports submitted by
CAU, the data that the PRDOJ reported to OVC in the State Performance
Report was also overstated.

      CAU and PRDOJ officials agreed the reports were incorrect. The CAU
Program Director told us the problem has been corrected. We recommend
OVC and the PRDOJ implement procedures to ensure the quarterly reports
an annual State Performance Reports are accurate.

Program Income

      The OJP Financial Guide defines program income as income generated
as a result of an agency-funded project. Program income must be used for
Program purposes as soon as possible after it is earned.

      We determined CAU and the CMHC provided services free of charge to
victims of crime and Program funds were not used to generate Program
income.

Conclusion

       We found the PRDOJ did not adequately supervise CAU and did not
identify weaknesses in CAU’s internal controls, grant expenditures, matching
share of costs, reporting, and achievement of Program objectives.
Specifically the CAU:

   	 did not follow established procedures for paying travel costs;

   	 paid $216,000 for “rent” for a building where it had no rental costs;

   	 implemented a flawed method of billing for victim services, which
      resulted in CAU paying for more services than it had received;

   	 charged $207,737 in unallowable personnel costs to Program funds;

   	 spent $2,366 in Program funds for gifts, which is an unallowable cost;

                                     19 

      	 did not provide, or could not show that it had provided, $656,836 in
         matching costs;

      	 commingled Program funds with general operating revenue account,
         which prevented the auditors from determining how $137,777 of
         Program funds were spent;

      	 did not achieve Program goals regarding the number of victims it
         planned to serve; and

      	 over reported the number of crime victims served for 5 of the 6 years
         reported, which the PRDOJ then reported to OVC.

     As a result of these weaknesses, we question $1,220,716 as
unsupported or unallowable.

       As previously stated in this report, we presented the audit and
investigative findings to the USAO, District of Puerto Rico. The USAO did not
initiate any action, but recommended that administrative tools be used to
recover the identified questioned costs. The USAO agreed to monitor the
administrative remedy process.

      Based on the audit and investigative findings we believe the
appropriate remedy for the questioned costs is a recovery of funds by the
PRDOJ. Additionally, we question $1,220,716 in unallowable and
unsupported costs and make five recommendations for improvement in the
oversight and management of future awards of DOJ grant funds received by
the PRDOJ and the CAU.

Recommendations

We recommend the OVC and the PRDOJ:

1.	   Remedy $216,000 CAU paid the CMHC for rent.

2.	   Remedy $207,737 in unallowable personnel costs paid with Program
      funds.

3.	 Remedy $2,366 in unallowable gifts bought with Program funds.

4.	 Remedy $137,777 in Program funds that CAU and the CMHC could not
    account for.


                                       20 

5.	 Remedy $656,836 in matching costs.

6.	 Require CAU to implement procedures to prevent commingling Program
    funds with funds from other sources.

7.	 Ensure CAU follows established policies for approving and paying travel
    costs.

8.	 Ensure the CAU submits accurate Program Reports regarding the
    number of victims served.

9.	 Require CAU to implement procedures to ensure it meets Program goals
    and objectives.

10. Require CAU officials to attend fraud awareness training provided by the
    OIG.




                                     21 

                                                            APPENDIX 1

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objectives of the audit were to: (1) determine whether
reimbursement claimed for costs under the grant were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant; and (2) evaluate whether the CAU has met or is
capable of meeting the grant goals set forth in its initial sub-grant
application. We conducted our audit in accordance with Government
Auditing Standards and included such tests as were considered necessary to
accomplish our goals. Our audit concentrated on, but was not limited to, the
inception of the grant in April 2002 through September 30, 2008.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and VOCA Program
Guidelines. We tested the CAU’s grant activities in the areas of grant
drawdowns, Program expenditures, accountable property, matching costs,
Program goals and accomplishments, financial status and Program reports,
and Program income.

      We reviewed CAU’s financial audit report for the fiscal year ended
June 30, 2007, to determine whether auditors found internal control
weaknesses or noncompliance issues that could affect CAU’s management of
federal programs. We found no instances of control weaknesses or
noncompliance issues that cross-cut to all federal awards.

      In conducting our audit we tested 7 non-consecutive pay periods from
CAU and CMHC payroll records, a judgmentally selected sample of 172
disbursements from a universe of approximately 3,777 disbursements, and
physically verified 15 property items purchased with grant funds. In
addition, we performed limited testing of source documents to assess the
accuracy of reimbursement requests and financial status reports; however,
we did not test the reliability of the financial management system as a
whole.




                                    22 

                                                      APPENDIX 2

SCHEDULE OF UNALLOWABLE RENT PAYMENTS
        MADE BY CAU TO THE CMHC
                    Check
  Payment Date                Amount
                   Number
    06/20/2002        103       $10,800
    07/22/2002       143          5,400
    08/27/2002       4792         5,400
    09/23/2002       4975         5,400
    10/29/2002       5304         5,400
    11/26/2002       5483         5,400
    12/11/2002       5570         5,400
    01/29/2003       5825         5,400
    03/05/2003       6042         5,400
    03/31/2003       6233         5,400
    05/02/2003       6421         5,400
    06/25/2003       6720         5,400
    07/07/2003       6797         5,400
    08/11/2003       6976         5,400
    09/03/2003       7092         5,400
    01/21/2004       7723        21,600
    01/22/2004       7733         5,400
    02/25/2004       7922         5,400
    04/05/2004       8142         5,400
    04/26/2004       8222         5,400
    06/02/2004       8429         5,400
    06/28/2004       8574         5,400
    08/10/2004       8796         5,400
    10/14/2004       9106         5,400
    11/08/2004       9208        16,200
    12/10/2004       9349         5,400
    01/27/2005       9508         5,400
    03/02/2005       9649         5,400
    03/15/2005       9722         5,400
    04/25/2005       9893         5,400
    05/26/2005      10029         5,400
    06/29/2005      10170        10,800
    08/15/2005      10367         5,400
       Total                  $216,000
Source: Carlos Albizu University Finance Department



                            23
                                                                         APPENDIX 3

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

             Description                                 Amount               Page
    Unallowable Costs:

       Unaccounted for Program funds                      $137,777               6
       Rent                                                216,000               8
       Personnel Costs                                     207,737              12
       Gifts                                                 2,366              13
       Total Unallowable Costs                           $563,880

    Unsupported Costs:

       Matching Costs                                      656,836              14
       Total Unsupported Costs                           $656,836

       Total Questioned Costs9                         $1,220,716




       9
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.


                                            24
                                                                                           APPENDIX 4

                  THE OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT REPORT
                                                      u.s. Department of Justice

                                                      Office of Justice Programs

                                                      Office of Audit. Assessment, and Managemelll




AUG2 5 20ID


MEMORANDUM TO:                Ferris 13. Polk
                              Regional Audit Manager
                              Officc of the Inspecior Gcneral


FROM:
                     U
                      ao :::::'~:':I::~:::et
                              DIrector
                                        OffiC~~Q~           ~~              ""     ~
SUBJECT:                      Response to the Draft     II Report , Office ofJustice Programs,
                              Office/or Vic/ims o/Crime Grants Sub-Awarded by 'he P"erlo Rico
                              Department 0/Justice /0 Carlos A/bizu University.
                              San JII(III, I'uerlo Rico

This memorandum is in response 10 your correspondence. dated July 26, 2010, transmilling Ihe
above drall audit repon for Carlos Albizu University (CAU). We consider the subject report
resolved and request written acceptance of Ihis action frOln your officc.

The report contains 10 recommendations and S 1,220,716 in questioned costs. The followi ng is
the Office of Justice Programs' (OJP) analysis of the drall audit report. For case ofTeview, the
draft audit report recommendations are restated in bold and are follo wed by OJP's response.

I.      \Ve reeommendlhe Office for Victims of C rime (OVC) a nd the Puerto RicfI
        Depllrtlllellt of JU $tice (P1WOJ) remedy $2 16,OUO th Rt CA U Il!Iid th e C ommunity
        Mental Health C linic (C MHC) for relit.

        We agret: with the recommendation. We will coordinate with CAU to remedy the
        $216,000 in questioned costs related to renl paid by CAU 10 CMHC.

2.      We recommend the OVC a nd the PRDOJ rem ed y $ 207,737 in un;llIowahle llersonnel
        costs [laid with prugnlll1 funds.

        We agree with the recommendation. We will coordinate with CAU to remedy the
        $207,737 in questioned cosis related to unallowlIble pcrsolUlel costs paid with program
        funds.




                                                 25 

J.   We reco mmend th e O Vc a nd th e I' RDOJ remed y S2,366 in un allowa ble gifts ho ughl
     w it h program funds.

     We agree wi lh the recommendation. We will coordi nate wilh CAU to remedy the 52,366
     in questioned costs related to unallowable gins purchased with Federal funds.

4.   We recomme nd the O VC and the PRDOJ reDledy $ 137.771 in program fun ds that
     C A U a nd the CMHC could not accou nt for.

     We agree with the recommendation. We will coordinate with CAU to remedy the
     5131,777 in questioned costs related 10 program funds Ihnl CAU and CMI-IC could not
     support.

5.   We r ecommend the ovC and the I' RDOJ re medy S656,836 in mulc hing costs.

     We agree with the recommendation. We will coo rdinate with CAU \ 0 remedy the
     $656,836 in questioned matching costs.

6.   We recommend th e OVC a nd t he PRDOJ req uire CAU 10 implemenl procedures 10
     prevent commingli ng progr a m funds wit h funds fr om other so urces.

     We agree with the recommendation. We will coordinate wi th CAU to develop and
     implem ent procedures to prevent commingling of Fedeml grant funds .

7.   W e r ecommend th e OVC and Ih e I'ROO,I en.'nre CAU follows establ ish ed po licies
     for approvi ng a nd pay ing Inlvel costs.

     We agree wiUl the recommendation. We will coordinate with CAU to establish policies
     for approving and paying travel costs.

8.   'Ve recommend t he OVC a nd th e PRDOJ ensure CA U submil.5 accurate prog r am
     r eports regarding th e number ofvielims served.

     We agree witn the reconunendation. We will coordinate with CAU to establish
     procedures to ensure that program reports regarding the munber of victims served are
     accurale.

9,   'Ve r ecommend th e OVC a nd the PRDOJ require C AU to implement         proeed u r~   to
     ens ure it me<:ts progra m goa ls and object ives.

     We agree with the recommcndation. We will coordinate with CAU to develop anti
     implement procedures to ensure thaI program goals and objectives are met.




                                             2




                                             26 

10.    We recommend th e OVC and the PRDOJ r e(l uire CAU officia ls fO atlend fraud
       aware n ess training provided by the Offil:e of th e Ins pector Gencrlll (DIG).

       We agree with the recommendation. We will coordinate with CAU to provide
       documentation that CAU officials have attended fraud awareness training provided by the
       OIG.

We appreciate the opportunity 10 review and comment on the draft audit report. Jfyou have any
questions or require additional infommtion, please contact Jeffery A. Haley, Deputy I)ireclor,
Audit and Review Division, on (202) 616-2936.

ce:    Jeffery A. Haley
       Deputy Director. Audi t and Review Division
       Office of Audit, Assessment, and Management

       Joye E. Frost
       Acti ng Director
       Office for Victims of Crime

       Barbara Walker
       Deputy Director
       Office for Victims of Crime

       Shadine Stultz
       Program Manager
       Office for Victims ofCrimc

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 201015&6




                                                3




                                               27 

                                                                                           APPENDIX 5

            PUERTO RICO DEPARTMENT OF JUSTICE AND 

                  CARLOS ALBIZU UNIVERISTY 

                RESPONSE TO THE DRAFT REPORT 




                                   COMMONWEALTH 01' PUERTO RICO

                       D EPARTMENT OF JU STICE
OUILLEFt.MO .... SOMOZAoCOLOMlil\.NI                                  P . O . ISO)( 1I020'U
       .t.TTORNn'   G~N~ML                                         SII.N JU.t.N, PR 001102..01112


August 30, 2010


Mr. Ferris 9 . Fo lk
Regional Audit Manage r
Office of tne Inspector Gener al
Atianta Regional Audit OffIce
7S Sprin g Stree t, Suite 1130
At lanta, Georgia 30303


RE :      Comments to Draft Audit Report r ela t ed to sr.mtli the PUlilrto Rico Oepartmlilnt
          of Justle. (PRDOJ) awar ded to ca r los Al bi2u University (CAU) Grant Numbers:
          2001-VA-GXOO72, 2002- VA-GXOO72, 2003-VA-GX-0057. 2004-VA-GX0012.
          200S-VA-GX0043, 2006-VA-GX0043, and 2007-VA-GXOOS4.

Dear Mr. Folk:

As req uested, the PRDOJ and the CAU are Includi ng a single joint response to the draft
;ludlt rep o rt recommendations of th e abo,",!! referenced document, dated July 26, 2010.

We are including recommendations I ndicating concurrence or non-concurrence, and the
corrective action t.,ken togeth e r , with th e correspond ing labeled supporting
documentation.

Recommen dations

1.     Remedy $216, 000 CAU paid the CM HC for rent.

          Aareemen t - Concurrence

          COr rect'ye Action - The CAU agrees to reimburse the $2.16,000 no later than
          September 30, 2010.

2.     Remedy $207,737 in unallowable personnel costs paid with Program funds .

          Agreeme n t -Concurrence




                                                 28 

Commellts to Droit
August 30, 2010

        Corrective Action - The CAU agrees to reimburse the $207,737 In @quill
        Installments during a period of five (5) years. (For more details, refer to the
        payment plan note)

3. Remedy $2,366In unallowa ble gifts bought wi th Program funds.

        Agreeme nt - Concurrence

        COrr!!ctl"e Action - The CAU agrees to reimburse the $2,366, no late r than
        September 30, 2010.

4.   Remedy $ 137,777 in Program funds that CAU and t he CMHC could not account for.

        Agreement -Concurrence

        Corrective Action - The CAU agrees to re imburse the $137,777 in equal
        installments during a period of five (5) years. (For more details, refer to the
        payment plan note).

S. Remedy $656,836 in matching costs.

        Acreeme nt - Concurrence

        Cor rective Actio n - As mentioned in p age 15 of the Draft Audit report "CAU
        s hou ld seek ove approval to use the $125, 255 fa ir market villue of the spilce
        contributed as matching cost " and i1nother contributions        The remedy In
        matching cost is as follows:

                                                                         Total Remedy
                                                                              $656,836
             a) Matchln, Cost relate d of the FMV . f the Space used
                                                  o                          (125.2S5)
                for the Olnlc at the University.
             b) Matchln. Cost re lated to storace re ntal of VOCA              ( 13,723)
                records furniture, and eauioment.
             c) Matching cost of 11 I.~terns working in the VOCA               (38,408)
                proJKt, during the months of October and
                November 2009.
                                                 Re m ai ning Ba lance        $479,450

        The remaining balance of the matching cost will be remedied by CAU, by
        providing services to VOCA victims referred by PRDOJ du ring a period of three
        years.




                                             29 

COmments to Draft
August 30,2010


6.   Require CAU to implement procedures to prevent commingling Program funds with
     funds from other sources.

       Agreement - Concurrence

       Actions Taken- The CAU provided copy of the last version for the Cash
       Management poliCies and procedures, which established that N     Funds receive d
       from grant awards (state or federal funds), must be deposited in a separate bank
       account opened for each grant award. Grant funds cannot be deposited in
       operational accounts." (Refer to Exhibit If 1- Cash Manage ment policies and
       procedures).

       The PRDOJ Internal Audit Office, confirmed the existence of one bank account
       used to manage all the VOCA Funds.

7. Ensure CAU follows established policies for approvin g and paying travel costs.

        Alreement - Concurrence

       Corrective Action - The CAU Issued a memo (Refer to Exhibit It 2) regarding
       purchase order procedures. This memo stated that Department Direct ors are not
       allowed to sign blank purchase orders (pre approved). Purchase Orders over
       $600 needs a second approval from any of the fo llOWing members: the
       p~esjdent, rector or < y ulher author ized official from the CAU.
                            Ill

8. Ensure the CAU submits accurate Program Reports re garding the number of victims
   served.

       Agreemant - Concurrence

       Corrective Action - In October 2008, (AU amended the Report of Victims
       Treated. The reports are prepared by the staff m embers that provide the direct
       services and are also verified by the Program Director. (Corrections were made,
       changes include the use of the number of victim s Instead of including the
       services provided to the vktlms). During the month of September 2010 the
       PROOJ Internal Audit Office, will verify the accuracy of the victims served during
       September 2009 at the San Juan CliniC.

9. Require (AU to implement procedures t o ensure it meets Program goals and
   objectives.

       Acreement - Concurrence

       Corrective   Action·   The   PRDOJ   Auxiliary   Deputy   of   Management     and




                                            30 

CommenU to Draft
August 3D, 2010


        Administration, through a memo dated August 26, 2010 (Refer to Exhibit #3),
        reinforces the projects monitors that all the closings grants of each subrecipient
        needs to ensure the accomplishments of goals and objectives established in the
        original proposal.

        In addition it establishes the review from the Director of the Office of Federal
        Affairs for the programatlc area from the Internal audit o ffice for the fiscal area
        In the maj or Programs of each grant.

10. Require CAU officials to attend fraud awareness training provided by the DIG.

        Agreement - Concurrence

        Correctiv. Action- CAU Officials, during the next months, subject t o availability
        will attend a fraud awaren@ss training provided by the DIG or other
        governmental regulatory agency or any other recognized professional
        association (Puerto Rico C.P.A. Association).

        Payment Plan Note - CAU will reimburse the followin g amounts no later than
        September 30,2010:

                  Rent                                                           $216,000
                  Unal1owab'e 'expenses                                              2266
                  AdVance POI ment under the Insullment plan (refer a              70,000
                  Total a ment n~ later than Sept'a mber 30, 2010               $ 288,266

                  (a) CAU will reimburse the following amounts under an installment period
                      of five (5) years. Advance payment of $70,000 will be paid.

                  Unallowable Personnel COst                                 207,737
                  Pro   m .Funds unaccounted                                 137,777
                  Lass Advance payment                                       7
                                                                            $275,514
        Remaining Balance of $ 275,514 payable in equal Installments during a five (5)
        years period. Annual payment of $ 55, 102.80 will begin in September 30, 2011
        and ends In September 30, 2015.

        We would like to bring to your attent ion, that the PRDOJ did not award fund s
        during 2009. We were waiting for the outcome of the full scope audit performed
        by the Office of the Inspector General related to the seven sub-grants that the
        PROOJ awarded to CAU from 2001 through 2007.

Furthermore, we will abide with the Inspector General findings. Consequently, we
welcome the Inspector General Recommendations and we look forward to make the




                                               31 

Com~ntJ to Oraft
August 30, 2010

appropriat Q corrections. ThQ U. S. De partment of Justice Office of Vic tims of Cri me
(OVe) will have our full collaboration and commitment, as to establish the procedures
and l or con trols within t he federal laws and the regulations issued there under.

We look forward to working w ith the U. S. Department of Justice Office of YK1;ims of
Crime (aYe) and the Carlos Alb izu University In solving this matter in the most efficient
and convenient matter.

If you need any additional information, please contact us.

Cord ially,



Guaf~                                               Ora . Ileana Rodriguez Garda
                                                    Pr@sident
                                                    carlos Abizu Unuversity

c Ant hony Murray, Esq.
  Sub-secretary

  Rafael River a Cru z, CPA
  Director Office of Audit




                                            32 

                                                                APPENDIX 6

   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY 

          OF ACTIONS NECESSARY TO CLOSE THE REPORT 


       The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP), the Puerto Rico Department of Justice (PRDOJ), and Carlos
Albizu University (CAU). OJP’s response is presented in Appendix 4. The
PRDOJ and CAU provided a joint response, which is presented in Appendix 5.
Materials provided along with the joint response have not been included in
Appendix 5 because of the length of the documents. We separately
discussed the PRDOJ and CAU joint response with the U.S. Attorney’s Office,
District of Puerto Rico. A representative of the U.S. Attorney’s Office
endorsed, in general, the proposed remedies of our questioned costs as
discussed below. The following provides the OIG’s analysis of the responses
and summary of actions necessary to close the report. Subsequent to the
issuance of the draft report, we made minor edits to the report to describe
better the involvement of the U.S. Attorney’s Office in assessing our results.
These edits have no material effect on the presentation of our results.

Analysis of OJP’s Response

      In its response to the draft report, OJP stated that it agreed with our
recommendations. OJP also stated that it would coordinate with CAU to
remedy the questioned costs and implement CAU’s planned corrective
actions. Our analysis of OJP’s response is discussed below under the
Summary of Actions Necessary to Close the Report.

Analysis of the PRDOJ’s and CAU’s Response

      In their joint response to the draft report, the PRDOJ and CAU stated
that they concurred with our recommendations. Along with the response,
PRDOJ and CAU provided an update on the status of corrective actions
planned or taken on each of the recommendations for remedying
$1,043,230 in questioned costs identified in Recommendations 1 through 5
of the report. The CAU also stated that they had already provided $177,386
of these matching costs. For recommendation 10, the joint response notes
that PRDOJ did not award funds to CAU during 2009 pending our audit
results.

      The CAU remediation plan is shown in the next page, followed by our
analysis of the PRDOJ’s and CAU’s response.



                                      33 

          CAU’s Proposed Plan for Remedying the Questioned Costs
         Rec.                                                               Amount
                                       Description
         No.                                                              Questioned
          1      Unallowable payments for rent                                $216,000
          3      Unallowable payments for Christmas gifts                        2,266
                 Subtotal – Note 1                                          $218,266
           2     Unallowable payments for personnel costs                    $207,737
           4     Program funds that were unaccounted for                       137,777
                 Subtotal – Note 2                                          $345,514
           5     Unsupported Match Contribution                                479,450
                 Subtotal – Note 3                                          $479,450
             Total Recovery                                                $1,043,230
       Source: The PRDOJ’s and CAU’s response to the draft     report (see Appendix 5)

       Notes:
                1.	 CAU agreed to repay the $218,266 by September 30, 2010.
                2.	 CAU agreed to repay $70,000 by September 30, 2010, and the
                    remaining $275,514 in five annual installments of $55,103 beginning
                    September 30, 2011.
                3.	 To remedy matching costs questioned in Recommendation 5, CAU
                    proposed to provide 3 years of additional program services valued at
                    $479,450.

      Our analysis of the PRDOJ’s and CAU’s response is discussed in the
following section.

Summary of Actions Necessary to Close the Report

 1.	   Resolved. OJP agreed with our recommendation and stated that it
       would coordinate with CAU to remedy the $216,000 in unallowable
       payments for rent. In its response to the draft report, CAU agreed to
       reimburse the $216,000 by September 30, 2010. This
       recommendation can be closed when the $216,000 has been
       remedied.

 2.	   Resolved. OJP agreed with our recommendation and stated that it
       would coordinate with CAU to remedy the $207,737 in unallowable
       personnel costs paid with program funds. In its response to the draft
       report, CAU agreed to reimburse the $207,737 according to a
       proposed repayment plan. This recommendation can be closed when
       the $207,737 has been remedied.

 3.	   Resolved. OJP agreed with our recommendation and stated that it
       would coordinate with CAU to remedy the $2,366 in unallowable gifts

                                              34 

      bought with program funds. In its response to the draft report, CAU
      agreed to reimburse the $2,366 by September 30, 2010. However,
      CAU’s proposed repayment plan was to repay $2,266, which is $100
      less than the questioned costs. This recommendation can be closed
      when the $2,366 has been remedied.

4.	   Resolved. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to remedy the $137,777 in program funds
      that were unaccounted for. In its response to the draft report, CAU
      stated it plans to reimburse the $137,777 according to a proposed
      repayment plan. This recommendation can be closed when the
      $137,777 has been remedied.

5.	   Resolved. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to remedy $656,836 in matching costs. In
      its response to the draft report, CAU stated that had already provided
      $177,386 of these matching costs – $125,255 for the fair market value
      of CAU space in which the program operated; $13,723 for costs
      incurred by the CAU to store program records, furniture, and
      equipment; and $38,408 in program services provided free to victims
      of crime during October and November 2009, which was after the
      PRDOJ stopped providing funding to CAU. For the remaining $479,450
      we questioned, CAU stated that it would remedy those costs by
      providing services to crime victims referred by the PRDOJ over a
      3-year period. This recommendation can be closed when the
      questioned costs have been remedied.

6.	   Closed. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to implement policies to prevent
      commingling federal funds with funds from other sources. Along with
      its response to the draft report, CAU provided a copy of those policies.
      This recommendation is closed based on our review of the policies.

7.	   Closed. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to establish policies for approving and
      paying travel costs. Along with its response to the draft report, CAU
      provided a copy of those policies. This recommendation is closed
      based on our review of the policies.

8.	   Resolved. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to establish procedures to ensure CAU
      accurately reports the number of crime victims served by the program.
      In its response to the draft report, CAU stated that it amended its
      October 2008 report on the number of crime victims served by the

                                      35 

      program and will base future reports on the number of victims served
      instead of the number of services provided to those victims. CAU’s
      response also stated that in September 2010, the PRDOJ will verify the
      accuracy of the reported number of victims served in September 2009,
      which is the last month the PRDOJ provided funds to CAU. This
      recommendation can be closed when we receive documentation
      showing: (1) CAU amended its October 2008 report on the number of
      victims served, and (2) the PRDOJ verified that the CAU accurately
      reported the number of victims served during September 2009.

9.	   Closed. OJP agreed with our recommendation and stated that it
      would coordinate with CAU to develop and implement procedures to
      ensure that program goals and objectives are met. Along with its
      response to the draft report CAU provided a copy of its procedures to
      ensure it meets program goals and objectives. This recommendation
      is closed based on our review of the policies.

10.	 Resolved. OJP agreed with our recommendation and stated that it
     would coordinate with CAU to provide documentation showing CAU
     officials attended fraud awareness training provided by the OIG. In its
     response to the draft report, CAU stated that CAU officials will attend
     fraud awareness training provided by the OIG, other governmental
     regulatory agency, or a recognized professional association. We note
     here that the U.S. Attorney’s Office, District of Puerto Rico has notified
     us that it is available to assist both the PRDOJ and CAU in this training.
     Under separate cover, we will provide the contact information for the
     U.S. Attorney’s Office. This recommendation can be closed when we
     receive documentation showing CAU officials attended fraud awareness
     training and the content of the training.




                                     36 

